                UNITED STATES
     CONSUMER PRODUCT SAFETY COMMISSION




         OFFICE OF INSPECTOR GENERAL

AUDIT OF THE GOVERNMENT PURCHASE CARD PROGRAM

              Issued: August 27, 2012
                                              TABLE OF CONTENTS




EXECUTIVE SUMMARY ................................................................................................ 3
   BACKGROUND ............................................................................................................ 5
   OBJECTIVES ................................................................................................................. 5
   SCOPE ............................................................................................................................ 6
   METHODOLOGY ......................................................................................................... 6
RESULTS AND FINDINGS .............................................................................................. 8
   1.    Lack of Adherence to CPSC Policy and Procedures ............................................... 8
   2.    Noncompliance with Laws and Regulations .......................................................... 10
   3.    Lack of Proper Design, Implementation, and Effective Internal Controls ............ 11
   4.    Accountable Property ............................................................................................ 15
RECOMMENDATIONS .................................................................................................. 15
MANAGEMENT RESPONSE......................................................................................... 16
APPENDIX A: MANAGEMENT’S RESPONSE ........................................................... 17
APPENDIX B: OIG’S RESPONSE TO MANAGEMENT ............................................. 18




                                                                                                                                     2
                              EXECUTIVE SUMMARY


BACKGROUND

The U.S. Consumer Product Safety Commission (CPSC) Office of Inspector General
(OIG) conducted a follow-up audit of the government purchase card (purchase card)
program. This audit was conducted in accordance with Generally Accepted Government
Auditing Standards (GAGAS). The purpose of our audit was to review purchase card
activity during fiscal year (FY) 2011, and management’s remediation efforts regarding
the findings and recommendations issued in the purchase card audit conducted by
WithumSmith + Brown (WS+B) in FY 2010. We reviewed applicable documentation to
gain an understanding of the operations of the purchase card program and the internal
controls that were in place for the purchase card program at the time of our audit. In
addition, we identified applicable laws, regulations, policies, and procedures; and we
evaluated the agency’s compliance with these. Finally, we reviewed the FY 2010 CPSC
Purchase Card Audit Report to determine whether management had taken timely
corrective actions based on the report’s findings and recommendations.

RESULTS OF EVALUATION AND FINDINGS

This report covers the CPSC’s purchase card program for FY 2011. Overall, we found
that the CPSC does have a functioning purchase card program in place; however, despite
direction from the Chairman of the agency, management officials have not taken timely
corrective action to address the deficiencies found in the 2010 audit. We found that the
program still has a number of internal control weaknesses and does not comply with a
number of the policies and procedures governing the purchase card program. Our
findings regarding these issues include the following:

   1. Lack of Adherence to CPSC Policies and Procedures:
      The CPSC does not follow its policies and procedures related to performing
      timely reviews and updates to the CPSC Directive, 1540.1 – Government-wide
      Commercial Purchase Card program and the related Directive, 1540.1a -
      Appendix A, Government-wide Commercial Purchase Card Handbook. No one
      has updated the directive since 2004. In addition, neither the Division of
      Financial Services (FMFS), nor the Division of Procurement Services (FMPS)
      performed a proper annual review of the purchase card program, as required by
      CPSC Directive 1540.1. The last review of the program by FMFS or FMPS took
      place during FY 2009, and that review did not follow the policies and procedures
      in CPSC Directive 1540.1.

   2. Noncompliance with Government-Wide Policies and Procedures:
      The CPSC does not comply with various government-wide regulations associated
      with the purchase card program. We noted failures to comply with the following
      regulations:



                                                                                       3
           a) Management did not complete audit remediation efforts properly in
              accordance with OMB Circular A-50, Audit Follow-Up;
           b) FMFS did not follow properly the guidelines for purchase card recovery
              procedures and internal controls set out in OMB Circular A-123,
              Management’s Responsibility for Internal Control, including Appendix B,
              Improving the Management of Government Charge Card Programs;
           c) The CPSC had multiple cardholders who initiated split purchases. Instead
              of detecting and correcting these purchases, Approving Officials (AO)
              authorized the purchases, which does not comply with Federal
              Acquisition Regulation (FAR) Part 13, Simplified Acquisition Procedures.

   3. Lack of Properly Designed, Implemented, and Effective Internal Controls:

Internal controls are processes designed to provide reasonable assurance regarding the
achievement of objectives in the following categories: (a) Effectiveness and efficiency of
operations; (b) Reliability of financial reporting; and (c) Compliance with laws and
regulations. Therefore, in our assessment of P-card internal controls, we first determined
whether the internal controls were created (designed) and placed into operation
(implemented). Based on the initial assessment of internal controls, we able to determine
whether controls placed into operation, were in fact, performed by those involved in the
program (operating effectiveness). The results of the evaluation, found that the purchase
card program lacks adequate internal controls. Problems were found with the design,
implementation, and/or effectiveness of the internal controls tested. We identified
internal control weaknesses in multiple areas of the purchase card program, including the
following:

           a) FMFS established internal controls that enabled circumvention by the
              cardholders and AOs, leading to the inconsistent use of the controls and
              creating an overall weak internal control environment;
           b) Cardholders and AOs are not following the internal control guidance
              provided by FMFS;
           c) Without authorization, one office within the CPSC created its own
              internal control structure separate and distinct from the one administered
              by FMFS;
           d) The internal controls in place failed to detect or prevent the
              improper/unallowable purchases of certain goods and services; and
           e) The internal controls in place failed to detect or prevent the improper
              approval or execution of purchases exceeding the micro-purchase limit.

   4. Accountable Property:
      Property purchased using the purchase card is not being properly accounted for;
      nor is it being entered into the CPSC’s Property Management System (PMS) in a
      timely manner.




                                                                                           4
MANAGEMENT’S RESPONSE

Overall, management concurred with all of our findings and recommendations, with the
exception of those related to the purchase of three Apple iPad 2s with the government
purchase card (Finding 3d above). This finding resulted from the CPSC’s inability to
produce documentation supporting the existence of a legitimate government need for the
purchase, plus the purchase’s violation of CPSC Directive 1540.1’s prohibition on the
purchase of telecommunications supplies. Further, no one accounted for these items
properly in the CPSC PMS until after their discovery by the OIG (Finding 4 above). See
management’s full response to these audit findings at Appendix A. Also, see the OIG’s
response to management’s response at Appendix B.

                                  INTRODUCTION

BACKGROUND


The General Services Administration (GSA) developed the Government-Wide
Commercial Purchase Card program to promote the use of the government purchase card
by federal agencies. GSA intended the purchase card program to streamline federal
agency acquisition processes by providing a low-cost, efficient vehicle for obtaining
goods and services directly from vendors. The CPSC, which is subject to the FAR,
promulgates its purchase card policies and procedures through a directive and handbook.
The Government Accountability Office (GAO) has reviewed purchase card programs for
many years and issued reports highlighting weaknesses that expose agencies to
fraudulent, improper, and abusive purchases and losses of assets. Some of the common
deficiencies cited by GAO include:

   • Failure to authorize purchases properly;
   • Failure to document independent receipt and acceptance; and
   • Inability to account for easily pilfered goods obtained with purchased cards.

The use of the purchase card benefits the government by saving time, money, and
resources. FAR Part 13.301 authorizes the use of the purchase card to make “micro-
purchases.” FAR Part 2.101 sets the micro-purchase threshold at $3,000 for most items;
however, the CPSC’s purchase card micro-purchase limit is currently set at $2,500.

OBJECTIVES

The primary objective of this audit was to assess the CPSC’s remediation efforts
regarding the findings and recommendations from the FY 2010 Purchase Card Audit
conducted by WS+B. The prior WS+B audit identified internal control and compliance
deficiencies within the CPSC’s purchase card program. Thus, we expanded our primary
audit objective to the following:




                                                                                         5
   1. To determine and assess the adequacy of the remediation efforts made by the
      CPSC regarding the audit findings and recommendations from the FY 2010
      Purchase Card Audit conducted by WS+B.
   2. To conduct an evaluation of the CPSC’s current purchase card program’s internal
      controls structure to determine whether internal controls have been designed and
      implemented appropriately and are operating effectively to ensure that purchase
      card program objectives are met.
   3. To evaluate the CPSC’s compliance with the federal laws, regulations, and
      provisions governing the purchase card program.

SCOPE

This audit covers purchase card transaction activity during FY 2011 (October 2010 to
September 2011), as administered by the Office of Financial Management, Planning, and
Evaluation (EXFM) at CPSC headquarters in Bethesda, MD. During the audit scope, the
CPSC had approximately 169 cardholders and $1,311,088.95 in net purchases. All
purchase cardholders at CPSC headquarters and field locations throughout the United
States were included in the scope of the audit. Audit fieldwork took place from January
2012 through March 2012.

METHODOLOGY

We conducted this audit in accordance with Generally Accepted Government Auditing
Standards (GAGAS). Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

To accomplish our audit objectives, we obtained an understanding of the CPSC purchase
card program to include the design, implementation, and operating effectiveness of
internal controls, compliance with CPSC governing policies and procedures, and
compliance with applicable federal laws, regulations, and provisions. Furthermore, to
assess the control environment, we also gained an understanding of the CPSC’s
remediation efforts from the prior FY 2010 Purchase Card Audit findings. To obtain this
understanding, we conducted interviews with key EXFM personnel, performed
walkthroughs of the CPSC purchase card internal controls and execution of policies and
procedures, inspected relevant supporting documentation, and examined purchase card
data and reports from the contracted vendor, U.S. Bank.

Based on the information gathered, we identified specific risks and opportunities for
fraudulent, improper, or abusive purchases within the CPSC's program, and then we
determined what key control activities were in place to prevent or detect such
occurrences. Additionally, we performed a preliminary assessment of whether the
controls were likely to be effective, and we identified any control design inefficiencies
based on the control process. As a result of the preliminary assessment, we designed the

                                                                                             6
audit procedures (test of controls) to assess the internal controls’ operating effectiveness,
to review specific attributes of the program, and to determine compliance with the
identified laws, regulations, and provisions governing the program.

In order to perform our audit procedures at the transactional level, we obtained a
population of purchase card transactions from the U.S. Bank System and verified the
completeness of the population by comparing the population totals to master bank
statements for the audit period. However, the U.S. Bank statement cycle close is mid-
month for transactions; thus, our sampled items were selected from the period September
17, 2010 through September 16, 2011. As such, this period includes a universe of 5,717
transactions totaling a net amount of $1,311,088.95. However, given the different
attributes surrounding credit (refund) transactions, we deemed it appropriate to extract
and test credit transactions as a separate sample. The separate credit transactions
extracted totaled 203 items amounting to $34,513.

To determine which transactions to review, we developed a dual-purpose sample to
increase the efficiencies of audit procedures. The dual-purpose sample allowed for the
testing of internal control effectiveness and the testing of the completeness and accuracy
of transactions simultaneously. As such, we developed the dual-purpose sample using a
Monetary Unit Sampling (MUS) approach. This approach resulted in a statistical sample
of 64 purchase card transactions drawn from a universe of 5,695 transactions (based on a
95 percent confidence level ((reliability)), and had an expected error rate of 5 percent.)

Using the dual-purpose sample, we were able to perform additional procedures for the
review of specific attributes. For each specific attribute, we extracted transactions from
the dual-purpose sample that met that attribute for the related auditing procedures (see the
chart below for specific attribute samples). As such, for any of the selected transactions
that were identified as “purchases of easily pilfered goods,” we performed additional
procedures to verify that the goods still existed, could be located, and were being used for
government purposes. In addition to the dual-purpose sample, we performed audit
procedures over key control elements related to the training of cardholders and approving
officials, card limits (single purchase and monthly), and purchasing and reviewing
authorities, as well as tests to determine if the purchase card program was in compliance
with the appropriate regulations. After completion of our control testing, the results were
analyzed, summarized, and projected (Dual-Purpose sample only).




                                                                                            7
Sum m ary of Additional Sam ples

                                                                                                     Total
          Sam ple                Type                            Description                     Transactions

MUS (Dual Purpose)             Statistical      Random sample of transactions                           64


                                                Tw o or more transactions made to the same
Split Purchase             Specific Attribute   vendor, re-occurring in a short period of time          48

                                                Individual purchases over the micro-purchase
Over Micro Limit           Specific Attribute   limit of $2,500                                         7

Credits                    Specific Attribute   Credit transactions selected for review                 10

Rounded Amounts            Specific Attribute   Round dollar amounts                                    9

                                                Property Purchases and proper recording of the
Accountable Property       Specific Attribute   asset                                                   5




                                    RESULTS AND FINDINGS

1. Lack of Adherence to CPSC Policy and Procedures

The Office of Financial Management (FMFS) does not comply with its own internal
policies and procedures regarding the operation and monitoring of the CPSC purchase
card program. They also neglect to update their written policies and procedures to reflect
changes made to the purchase card program’s operations.

During our review of the CPSC Directive 1540.1, Government-wide Purchase Card
program, and its Appendix 1540.1a, Purchase Card Handbook, we noted that both
documents were inconsistent with the current internal control structure and operations of
the purchase card program at the CPSC. We noted the following issues:

    •      In FY 2011, FMFS modified the purchase card program’s processes and internal
           controls. FMFS communicated these modifications to CPSC employees and
           documented them in a training presentation provided to attendees/cardholders.
           FMFS did not, however, update the purchase card program directive to reflect
           these changes. As written, the current directive and handbook fail to reflect the
           purchase card program internal controls currently used by the CPSC. The last
           update to the Directive was made on December 1, 2004 and the Handbook was
           last updated on November 3, 2003.




                                                                                                    8
   •   As previously noted, WS+B conducted a CPSC purchase card audit during FY
       2010 covering the audit period of December 2008 through December 2009.
       WS+B issued the results of the audit to management on October 6, 2010, with
       recommendations to update the CPSC Directives to address specific internal
       control weaknesses identified during the audit. As of the start of FY 2011, FMFS
       had prepared an internal draft update to the handbook, dated July 2011, but no
       other updates or finalizations had occurred.

Inconsistencies found between how FMFS operated the purchase card program and how
the CPSC’s policies and procedures state the purchase card program is to operate include
the following:

   •   FMFS is required to perform an annual review of the purchase card program
       using the GSA’s Blueprint for Success: Purchase Card Oversight Guide. The
       annual review should include an assessment of the CPSC’s purchase card
       program: policies, training requirements, delegations of authority, integrity of the
       purchase process, compliance with procurement regulations, receipt and
       acceptance procedures, records retention, and handling of inactive accounts. The
       Procurement Division (FMPS), under the direction of FMFS, conducted the last
       review of the purchase card program, which took place in FY 2009. That review
       did not use the GSA Blueprint for Success, as required by CSPC Directive
       1540.1. In their audit, WS+B found the review performed to be inadequate and
       recommended that future reviews be performed using the GSA Blueprint for
       Success

       Per our discussion with FMFS management regarding annual reviews, the reason
       they did not conduct annual reviews is that FMFS management considered the
       WS+B audit performed in FY 2010 and the OIG audit currently underway, as
       reviews that FMFS could rely upon to monitor the program. This interpretation,
       however, is not consistent with CPSC directive 1540.1, which explicitly requires
       that FMFS perform an annual review using the GSA’s Blueprint for Success:
       Purchase Card Oversight Guide as the basis for the review.

Regarding CPSC Directive 1540.1a (Purchase Card Handbook), we identified the
following contradiction between policy and practice:

   •   The CPSC Purchase Card Handbook, as well as the training guidance provided by
       FMFS to cardholders and AOs in FY 2011, states: “If an individual no longer
       needs a card because of a change in duties, transfer, separation, etc., the
       Approving Official must immediately notify FMFS to cancel the card and then
       must destroy the card. Cards may not be retained as ‘souvenirs.’ Cardholders
       must also turn over to the Approving Official all unbilled purchase card purchase
       requests and all files pertaining to the use of the card.”




                                                                                          9
       FMFS does not comply with its own policy. It has not required the subject
       cardholder’s AO to take responsibility for the cancellation of the cardholder’s
       purchase card. Instead, FMFS is taking the purchase cardholders at their word
       and trusting them to dispose of the card properly without any independent
       verification. Further, the guidance above is not clear about whether the ultimate
       responsibility for canceling the card rests with the AO or FMFS. In either case,
       the cardholder is not the individual authorized to dispose of the card.

2. Noncompliance with Government-Wide Policies and Procedures:

The CPSC does not comply with the following regulations governing the purchase card
program:

   a) OMB Circular A-50, Audit Follow-Up. FMFS and FMPS management did not
      comply with the audit follow-up guidance set forth in OMB Circular A-50. This
      guidance requires FMFM and FMPS to take corrective action on audit
      recommendations within 6 months of the agency receiving the final audit report.
      The agency received the final audit report regarding the FY 2010 Purchase Card
      Audit performed by WS+B on March 31, 2011.

       The CPSC Chairman, in a letter dated April 20, 2011, directed agency
       management to send the Chairman’s office and the OIG a status report concerning
       their implementation of the recommendations set out in the WS+B audit report
       within 30 days of their receipt of the letter.

       At the start of our audit fieldwork (January 20, 2012), FMFS management
       indicated that a Corrective Action Plan (CAP) had not been submitted to the OIG,
       Executive Director, and/or Chairman to address the audit recommendations from
       the FY 2010 audit by WS+B. Ultimately, the final CAP for the FY 2010
       Purchase Card Audit recommendations was not finalized until February 22, 2012.

       OMB Circular A-123, Management’s Responsibility for Internal Control. OMB
       Circular A-123 states that agency management is responsible for establishing and
       maintaining internal controls to achieve the objectives of effective and efficient
       operations, reliable financial reporting, and compliance with applicable laws and
       regulations. We found many areas in which internal controls were designed
       inappropriately and/or were not effective at meeting the objectives of the CPSC
       purchase card program. These controls also failed to prevent and correct errors.
       See further discussion related to the “Lack of Proper Design, Implementation, and
       Effective Internal Controls” section below.

       OMB Circular A-123, Appendix B, Improving the Management of Government
       Charge Card programs. FMFS’s purchase card recovery procedures do not
       comply with OMB Circular A-123 Appendix B. OMB Circular A-123, Appendix
       B, Section 2.3, provides agencies guidance on the “required elements” of an
       agency’s charge card management plan. It requires the agency to recover

                                                                                       10
        purchase cards from all employees who terminate their employment with the
        agency. FMFS does not recover purchase cards from all employees who
        terminate their employment with the agency. We noted that FMFS lacked a
        consistent process for recovering purchase cards from cardholders who leave the
        agency. During our discussion with FMFS regarding the process used to recover
        purchase cards when employees separate or are terminated from the agency,
        FMFS indicated that some employees bring the card to FMFS upon separating
        from the CPSC and at other times, the cardholder disposes of the card on their
        own and gives notice of this fact to FMFS.

    b) Federal Acquisition Regulation (FAR) Part 13- Simplified Acquisition
       Procedures. The Federal Acquisition Regulation (FAR) designates the purchase
       card as the preferred method for making micropurchases. At the time of our
       audit, a “micropurchase” was defined as any purchase equal to or under $2,500. 1
       Cardholders are authorized explicitly to make purchases of up to $2,500.00 but
       should not use the card for purchases above the $2,500 threshold. During our
       review of purchase card transactions, we identified 24 split purchase transactions
       made by the Office of Facilities, 5RP (the Lab), and the Office of Information
       Technology (EXIT). These transactions were identified as split purchases, as
       these purchases were made to the same vendor, on the same day, or within a short
       timeframe up to a few months, totaling amounts in excess of the micro-purchase
       limit of $2,500. In further analysis of these transactions, many of these split
       purchases, when aggregated throughout the year, resulted in amounts in excess of
       $7,000. These purchases consisted mainly of goods and services that should have
       been acquired through a Blanket Purchase Agreement (BPA) due to the repetitive
       nature and dollar amount of the purchase.

2. Lack of Proper Design, Implementation, and Effective Internal Controls

Management was aware from a prior audit of a number of weaknesses in its existing
internal controls over the purchase card program. As such, at the time of this audit, they
were in the process of finalizing new internal controls in the form of a draft directive and
handbook. At management’s request, we reviewed this draft agency guidance rather than
the existing guidance, which all parties acknowledged needed to be revised.

a) Review Over Internal Controls

    Throughout the CPSC purchase card program, we identified that internal controls
    implemented by FMFS are insufficiently designed and/or are not operating effectively
    to prevent and correct errors and misuse. The reasons for these deficiencies are
    ineffective communication of the internal control structure to cardholders and their
    respective AOs and the previously noted inconsistencies between actual operations
    and the agency’s written policies and procedures.

1
 Micropurchase means an acquisition of supplies or services using simplified acquisition procedures, the
aggregate amount of which does not exceed the micropurchase threshold, except for construction or in
other specific instances.

                                                                                                       11
We identified weaknesses in the following areas:

•   Approval from the Funds Controller is required prior to a purchase being made
    by the cardholder (Directive 1540.1a§4a (3) DRAFT July 2011). The Funds
    Controller is responsible for ensuring the funds are available prior to the purchase
    and obligated properly. However, when an employee is not only the cardholder,
    but also the Funds Controller for their office, a situation that exists in a number of
    offices, there is currently no specific guidance on what the employee should do.
    Thus, this creates a lapse in the operation of the internal control. We identified 38
    instances in which the cardholders did not obtain approval from the Funds
    Controller prior to the purchase. The majority of these instances occurred in
    offices where the cardholders also functioned as their respective office’s Funds
    Controllers. In addition, the Office of Compliance and Field Investigations (CFI)
    determined arbitrarily that when dealing with amounts of $200 or less, they do not
    have to comply with this internal control. This decision overrides the internal
    control established by FMFS, which requires Funds Controller approval for all
    purchases, regardless of amount.

•   Documentation on cardholder order/purchase log for the transaction (Directive
    1540.1a§4a (3) DRAFT July 2011). We identified 11 instances in which
    cardholders were not properly using an order log to record their purchase card
    purchases. Furthermore, some cardholders did not record the final amount paid
    on the order log and instead used the amounts initially quoted by the vendor.
•   AO Approval on the order log before the purchase is made (Directive 1540.1a§4a
    (3) DRAFT July 2011). We found that this control was not communicated
    properly to cardholders and AOs during the FY 2011 training conducted by
    FMFS. Based on an inquiry among cardholders, some did not understand when
    and how to execute this control. We identified 12 instances in which the
    cardholders did not have the required AO approval and a number of other
    instances in which AO approval was obtained but not documented on the order
    log.

•   Cardholder Retains a copy of the approved statement, order log, and all charges
    and credit card slips for inclusion in the procurement file (Directive 1540.1a§8a
    (9) DRAFT July 2011). We found 12 instances in which the cardholders did not
    retain their invoice or receipt for purchases, or did they keep their AO-approved
    statements.




                                                                                       12
   •   Independent receipt by a third party for purchases (Directive 1540.1a§8b DRAFT
       July 2011). Based on discussions with FMFS, FMFS management deemed this
       internal control to be impractical for the Field Investigation cardholders;
       therefore, these cardholders received an exemption from this internal control.
       Further weakening this control is the fact that, as drafted, it allows individual
       cardholders to use their discretion about when the control is to be performed. As
       currently designed, this internal control is only applicable to personnel assigned at
       the CPSC headquarters and when deemed “practical.” We identified six instances
       where independent receipt by a third party was not performed.

   •   Cardholder certification of purchases on the bank statements are to be signed and
       dated (Directive 1540.1a§8a (5) DRAFT July 2011). We identified 22 instances
       in which cardholders did not certify and/or date their statements.

   •   The appropriate and assigned AO signs the US Bank Statement (Directive
       1540.1a§3e DRAFT July 2011). We found five instances where a cardholder did
       not have the appropriate AO approval on the statement, the AO did not date the
       statement upon approving, and/or the AO approved the statements before the
       cardholder had certified them.

   •   Sales Tax being recouped when charged (Directive 1540.1a §6 DRAFT July
       2011). We found five instances where the cardholders incurred sales tax on their
       charges and did not recoup the money from the vendor.

b) Override of control

   We further note that telecommunication services, which are a type of purchase that is
   explicitly not authorized to be made with the purchase card (Directive 1540.1§11
   (December 1, 2004), were being purchased by cardholders. We also found that a
   cardholder circumvented the purchase card process controls to make a purchase that
   was to be paid by another organization.
c) Internal Control Override in the Field Investigations Directorate

   Without the knowledge or approval of FMFS staff or management, the Field
   Investigations Directorate developed a separate process for using the purchase card
   that contradicted agency policy and procedures. This process was developed despite
   explicit guidance from the then-Chief Financial Officer (CFO) to the Field
   Investigation Directorate to comply with existing agency purchase card policies and
   procedures. Further, we obtained e-mail sent to Field Investigations Directorate
   cardholders and AOs in response to the former CFO’s guidance on purchase cards,
   which instructed Field Investigations Directorate employees to continue with their
   method of use for the purchase card program, even though it was against agency
   policy. The following control overrides were identified:



                                                                                         13
   •   Cardholders did not need to obtain approval before purchase from Funds
       Controllers for amounts less than $200;
   •   Cardholders did not send their documentation and statement approvals directly to
       the AO;
   •   Cardholders did not retain a copy of the AO-approved statement; and
   •   Cardholders are allowed to charge telecommunication services using their
       purchase card.

d) Improper/Unauthorized/Abusive Purchases

OMB Circular A-123, Appendix B, Section 4.6, states that an “improper purchase” is any
purchase that should not have been made under statutory, contractual, administrative, or
other legally applicable requirements. An improper purchase can be one of two types: (1)
unauthorized, or (2) incorrect. An “unauthorized purchase” is defined as a purchase that
is made intentionally and outside of the authority of the purchase cardholder. “Abusive
purchases” are defined by the GAO as occurring “. . . where the conduct of a government
organization, program, activity, or function fell short of societal expectations of prudent
behavior . . . examples of abusive purchases (include) where the cardholder (1) purchased
goods or services at an excessive cost (e.g., gold plated), or (2) purchased an item for
which government need was questionable.

We identified the following improper purchases made in violation of the CPSC directive
governing the use of the P-Card, which explicitly states that purchase cards cannot be
used for any expense related to telecommunications:

   •   Our initial review found two instances in which telecommunication services had
       been purchased. Further analysis of the entire population of purchase card
       transactions found 269 improper purchases of telecommunications services.

   •   Three Apple iPad 2s with 3G and 64 GB capabilities (the most expensive
       configuration sold at the time), each for $825.00, were purchased for use by the
       three most senior management officials in the Office of Information and
       Technology (EXIT). Management maintains that the iPad 2s were purchased to
       meet a legitimate government need (testing the compatibility of the iPad 2s with
       the CPSC’s network) and that they did not constitute “telecommunications”
       devices, so their purchase did not violate the CPSC directive governing the use of
       the purchase card. However, management also acknowledged that there was no
       “testing plan” or other documentary evidence to substantiate that the purpose for
       which the iPad 2s were purchased was for “testing”; nor did management explain
       why the most expensive configuration had to be purchased rather than a less
       expensive one. Similarly, there was no documentation to show the results of
       whatever tests were performed. We further note that the iPad 2s were purchased
       in July 2011, and were not properly accounted for by management within the
       CPSC’s Property Management System (PMS) until March 2012, after the failure
       to account properly for them was brought to management’s attention by this audit.
       (See Appendixes A & B)

                                                                                        14
e) Improper Approval for Purchases Exceeding Micropurchase Limit

Two out of the seven samples we reviewed did not have proper approval for purchases
exceeding the micro-purchase limit of $2,500.

3. Accountable Property

We identified two instances in which property purchased using the purchase card was not
properly accounted for and timely entered into the property management system (PMS).
The PMS serves as the system of record to account for accountable and sensitive
property, and without proper recording of the asset, such assets are susceptible to fraud
and misuse. The noted items found included a label maker (received on 8/24/11) and
three iPad 2s (received on 7/21/11) entered into the PMS system only after our audit
identified their improper recording in March 2012.

                                    CONCLUSION

Based on the results and findings noted above, the CPSC has not complied with its or the
general federal government purchase card program regulations, policies, and procedures.
Moreover, the CPSC’s purchase card program has significant internal control
weaknesses. We have discussed our recommendations with management. Management
plans to take the proper action to remediate the issues noted and will implement policies
and procedures to strengthen the program through the development of a CAP.

                               RECOMMENDATIONS

To ensure that internal controls related to the CPSC’s purchase card program are
effective in mitigating the risk of abuse or fraud, we recommend that the Chairman of the
U.S. Consumer Product Safety Commission direct the Chief Financial Officer to:

   1. Update and finalize, with approval from the Chairman or Executive Director, the
      CPSC purchase card Directive (1540) and associated Handbook (1540.1a) in the
      near future in order to ensure compliance with program laws and regulations and
      specifically to address:

           a. Proper management approvals and when to obtain them in the process
              (i.e., funds controller, AO);
           b. Headquarters vs. Field Process;
           c. Independent Receipt;
           d. Definitions of unauthorized purchases;
           e. Split Purchase Guidance;
           f. Sales Tax Exemption;
           g. Signing and Dating the US Bank Statements for cardholders and AOs;
           h. Actual vs. Final prices recorded on the Order Log;
           i. Safeguarding Accountable Property;

                                                                                       15
          j. Allowing Others to Use the Purchase Card; and
          k. Approval of purchases over the Micro-Purchase limit.

   2. Ensure that after the updated purchase card directive and handbook are finalized,
      FMFS conducts mandatory internal training for all cardholders and AOs,
      regardless of their participation in GSA training, to provide guidance on the
      updated changes to the purchase card program contained in the directive and
      handbook.

   3. Devise and execute, at a minimum, an annual review for FMFS to perform over
      the purchase card program to identify unusual or fraudulent purchases, and to
      ensure cardholder and AO compliance with the program.

   4. Revise the current purchase card Corrective Action Plan to incorporate the
      findings and recommendations associated with the FY 2011 audit and perform the
      necessary corrective actions in a timely manner.

   5. Monitor assets purchased with the purchase card to ensure that cardholders
      communicate properly with property custodians and that the purchased assets are
      bar-coded and recorded in the PMS system.

   6. We recommend that the Commission hold the certifying official personally liable
      for the funds spent related to the purchase of the three Apple iPad 2s discussed
      above in the amount of $2,480.00.

   7. Perform continuous monitoring of the purchase card program throughout the
      fiscal year to reduce the risk of noncompliance with laws and regulations.


                           MANAGEMENT RESPONSE

Management concurred with all audit findings except one. Management did not concur
with the finding and recommendation related to the improper purchasing by EXIT of the
Apple iPad 2s. See Management’s response to the audit finding at Appendix A. See
OIG’s response to Management’s assertions at Appendix B.




                                                                                      16
APPENDIX A: MANAGEMENT RESPONSE




 PAGE INTENTIONALLY LEFT BLANK




                                  17
       APPENDIX B: OIG’S RESPONSE TO MANAGEMENT’S RESPONSE

During the course of the audit, we found that three Apple iPad 2s with 3G and 64 GB
capabilities had been purchased, each in the amount of $825.00, for use by the three
senior management officials in the Office of Information and Technology Services
(EXIT). These purchases were viewed as improper (as they violated the CPSC directive
governing the use of the purchase card), questionable (in terms of whether there was a
legitimate government need for the purchase), and there was a lack of documentation
supporting the government’s decision to make the purchase. As a result, we issued a
finding that the purchase was improper, unauthorized, and abusive.

Management disagreed with this finding and the resulting recommendation that the
certifying official responsible for the purchase should be held personally liable for the
government funds expended. Management issued a lengthy response to our finding and
recommendation. After thoroughly reviewing management’s response, for the reasons
set out below, the finding and recommendation stand as originally issued.

Both OMB and GAO have issued guidance regarding what they view as improper,
unauthorized, or abusive purchases.

OMB Circular A-123, Appendix B, Section 4.6, defines an “improper purchase” as, “. . .
any purchase that should not have been made . . . under statutory, contractual,
administrative, or other legally applicable requirements. . . .” GAO Report 08-333 offers
a similar definition, “. . . those purchases that although intended for government use, are
not permitted by law, regulation, or government/agency policy.”

OMB Circular A-123, Appendix B, further defines unauthorized purchases to “. . . consist
of items that are intentionally purchased and are outside of the cardholder’s purchasing
authority. For instance, using a government charge card to purchase a tennis racket is an
unauthorized purchase.”

CPSC Directive 1540.1 governs the CPSC’s purchase card program. This directive
contains a prohibition against CPSC employees using the purchase card to acquire
telecommunications services or supplies. Although, the directive contains no definition
of the term “telecommunication,” the most common definitions (Webster's Dictionary,
Wikipedia, etc.) refer to “communication at a distance” and “technology that deals with
telecommunication” with special reference to the Internet and social media. The subject
iPad 2s with 3G would appear to fall squarely within the prohibition contained in this
directive. 2 As such, their purchase, made without authority, violates the agency’s
regulation governing the use of the purchase card.

2
 The CPSC’s Office of the General Counsel has issued an opinion that comes to a contrary conclusion.
Despite acknowledging: “The telecommunication features of the iPad 2 include being able to ‘run on a
wireless network, a 3G cellular network, or third generation mobile telecommunications’. . ., ” they
ultimately concluded that the iPad 2 was not a telecommunications device for the purposes of this audit.
(See the unsigned draft legal review attached to management response at Appendix 1.) The OIG is not
bound by the reasoning of the OGC and does not find it persuasive in this matter.

                                                                                                           18
GAO Report 08-333 defines “abusive purchases” as follows: “. . . where the conduct of a
government organization, program, activity, or function fell short of societal expectations
of prudent behavior . . . examples of abusive purchases (included) where the cardholder
(1) purchased goods or services at an excessive cost (e.g., gold plated), or (2) purchased
an item for which government need was questionable.”

The “starting price” of an iPad 2 in 2011, according to the Apple website, was $499.00.
The iPad 2 comes in 16GB, 32 GB, and 64 GB configurations. The configuration
purchased by the CPSC was the most expensive or “gold plated” model. In its response,
management has stated that this configuration was necessary to meet the needs of the
investigators to whom it might be issued. No explanation or documentation was ever
provided regarding how it was determined that the investigators in question needed those
specific requirements. Similarly, no explanation was made as to why the agency’s testing
of “device management tools and device integration,” the original rationale given for the
purchase (see below), would require more than 16GB of storage capacity.

When we inquired about why EXIT made the purchase (i.e., querying what government
need was the purchase made to address?), EXIT management stated that the iPad 2s were
being used to perform “informal market research on device management tools and device
integration.” However, when we requested a copy of the test plan or the results of the
analysis or research performed, to date, EXIT management indicated that there was no
documentation of either. This raises questions regarding the validity of the justification
for purchasing the assets, which had been in EXIT’s possession for almost a year prior to
the audit, apparently with no documented research or analysis performed.

In Management’s response to the finding, we noted that Management stated EXIT was
performing “other types of reviews” on the products, as well as “Staff met with several
vendors to determine how they have addressed security requirements . . .” However, none
of the reviews and/or discussions have been documented and provided to the OIG for
review. Although, Management asserts that the purchase of the iPad 2s by the agency is
“justifiable by the business needs of the agency,” there is no documentation to support
this position.

Also troubling is the fact that the three iPad 2s were received by EXIT on July 21, 2011,
but as of March 1, 2012, the iPad 2s had not been entered into the Property Management
System (PMS). Thus, for more than 6 months, the iPad 2s remained unaccounted for by
the agency. Although, Management stated in its response that the items were “assigned
barcodes on September 20, 2011 (one iPad 2) and September 28, 2011 (two iPad 2s),”
this does not establish that on those dates EXIT properly accounted for the items. The
bar-coded asset actually must be entered into the PMS to be accounted for properly.
“Assigning” a barcode or physically attaching the barcode sticker to an asset is not a
proper process for recording an asset; nor does simply placing the barcode sticker on
property mean the purchaser has accounted for the property. Until the barcode sticker
and the item are “married together” within the property management system, there is no
accountability for the asset.

                                                                                        19
In addition, the OIG obtained an e-mail on March 6, 2012, from the cardholder who
purchased the iPad 2s, stating: “. . . the equipment was not tagged but it seems they were
tagged in November 2011.” Thus, this adds a third possible date suggesting when the
process began of accounting for the iPad 2s. The confusion about when the placement of
the “bar code stickers” on the iPads occurred underscores the fact that there is no accurate
method to determine if, and when, tagging an asset occurs, unless the purchaser properly
enters the asset into the PMS system of record. These types of sensitive and expensive
telecommunication devices that are highly susceptible to theft should have been properly
barcoded and entered into the PMS by the property custodian, and transferred and
accepted within the PMS in a timely manner by the senior management personnel to
whom they were issued.

Based on the current agency directive governing the purchase card program, the lack of
documentation provided by management, along with the definitions provided by OMB
and GAO, we find that the purchase of the iPad 2s was improper (it was in violation of
CPSC Directive 1540.1), unauthorized (it was an intentional purpose that was outside of
the cardholders purchasing authority), and abusive (the purchase fell short of societal
expectation, both in terms of excessive cost and questionable need). The lack of
documentation supporting government need, the lack of documentation regarding to what
legitimate use the iPad 2s were put, and the failure to log the iPad 2s into the PMS
properly, potentially could create the perception that the purchase may have been for a
fraudulent purpose (personal use).

The original finding and recommendation stand, as written. The official who
approved/certified the purchase of the iPad 2s should be held personally financially liable
for the full amount of the unauthorized purchase. Under 31 U.S.C. Sec. 3528, the
certifying official who signs the voucher is responsible for the existence and correctness
of the facts cited in the certificate, voucher, or supporting papers. In addition, the
certifying official is responsible for the legality of the proposed payment and is liable for
any illegal, improper, or incorrect payment resulting from any false, inaccurate, or
misleading certification he or she makes, as well as for any payment prohibited by law, or
that did not represent a legal obligation. As discussed previously, the purchase of the
iPad 2s was improper and unauthorized because it violated the CPSC’s directive
governing the purchase card program.




                                                                                          20
Management’s Response to the Office of the Inspector
General’s Notice of Finding and Recommendation,
Finding #11, Improper Purchase, CPSC FY 2011
Purchase Card Review Audit

Management disagrees with the OIG finding that the purchase of the three iPad 2s was
improper, unauthorized, and abusive, according to OMB Circular A-123 and GAO Report 08-333.
Management accepts the recommendation that an oversight program be established in the
Division of Financial Services (FMFS); however, given that the purchase of the iPad 2s was
proper, an oversight program would not have identified the purchase as improper. Management
agrees that the iPad 2s should have been entered into the Property Management System in a
timelier manner and is reviewing its standard operating procedures to correct that issue.

Purchase Was Not Improper or Unauthorized

The Office of Management and Budget (OMB) and the Government Accountability Office (GAO)
provide definitions of improper purchases. According to OMB Circular A-123, an improper
payment is “. . . any purchase that should not have been made . . . under statutory, contractual,
administrative, or other legally applicable requirements.” The GAO Report 08-333 defines
improper transactions as purchases that “are not permitted by law, regulation, or
government/agency policy.” The CPSC’s administrative requirements and agency policy relating
to this purchase are set in CPSC Directive 1540.1, Government Commercial Purchase Card
Program. Considering these guidance documents and relevant agency policy, the CPSC’s Office
of the General Counsel (“OGC”) determined that “the purchase of the iPads is not prohibited [by
the CPSC directive], and thus, the purchases were not improper under the criteria established in
OMB Circular A123, appendix B.” 1 OGC also found that the purchases “were appropriately
authorized under the OMB Circular.” 2 Based on OGC’s legal determinations, as well as
Management’s own understanding of the relevant guidance documents and agency policies,
Management believes the purchase of the iPad 2s was not improper, unauthorized or abusive.

An iPad 2 is a tablet computer that performs traditional computer hardware functions and also
contains many telecommunications features. While the directive prohibits the use of a purchase
card to purchase a telecommunication device, it permits the use of a purchase card to purchase
computer hardware. The traditional computer hardware functions of the iPad 2 include
allowing “an employee to access files, edit documents, create forms, take notes, create invoices,
analyze reports, brainstorm ideas, and create presentations.” 3 The telecommunication features
of the iPad 2 include being able to “run on a wireless network, a 3G cellular network, or third
generation mobile telecommunication.” 4 The hybrid nature of the device means it “does not fall

1
  May 29, 2012 memorandum from Pamela L. Brinker to Kenneth R. Hinson, Purchase Card Use for iPads,
  at 1 (Attachment A) (“OGC memo”).
2
  Id.
3
  Id. at 2.
4
  Id.

                                                 1
squarely into the definition of either computer hardware or a telecommunication device.” 5 In
light of these factors, the Office of the General Counsel concluded that “the use of the purchase
card to purchase these devices [was] not expressly prohibited by CPSC Directive 1540.1, as
written.” 6

In light of the legal finding that the purchase of the iPads was not outside of the cardholder’s
purchasing authority proscribed by the CPSC directive, there can be no unauthorized purchase
pursuant to OMB guidance. 7 Accordingly, the purchase of the iPads was not unauthorized
pursuant to the OMB Circular. 8 Further, since the purchase was not unauthorized, the purchase
was also not an improper purchase under the OMB Circular.” 9

Although Management finds that the purchase of the iPad 2s was not improper or unauthorized,
it is apparent that CPSC’s directive did not envision the existence of items such as the tablet
computer. Accordingly, Management is updating the directive to be more consistent with its
original intent 10 and to reflect advances in technology.

Purchase Was Not Abusive or Fraudulent

Management disagrees that the iPad 2 purchase fits into the definition applied from GAO Report
08-833 that the purchase was abusive, meaning it was either excessive or of questionable need.
Management also disagrees that the purchase was fraudulent and intended for personal use.

Evaluating and recommending information technology (IT) equipment and solutions is an
integral part of the Office of Information & Technology Services’ (EXIT’s) mission to implement
and operate an IT infrastructure that helps the agency’s program areas meet their goals. iPads,
other tablets, and smart phones are evolving at an extremely rapid pace. Although they have
become pervasive across business and government, they do not always mesh neatly into an
existing IT infrastructure. At any given time, EXIT is actively reviewing and testing many
different information technology solutions.

All IT initiatives that involve product selection and implementation also involve risk. EXIT
attempts to mitigate that risk by rigorously testing any technology being considered. When
possible, EXIT attempts to acquire evaluation units from vendors at no cost and on a temporary
basis. When EXIT cannot acquire evaluation units and when the cost of the evaluation suite is
relatively small, as was the $2,400 cost for the three iPad 2s, EXIT procures the equipment as an
expediency. EXIT also purchases units when the evaluation is likely to be of an undetermined
period.
5
  Id.
6
  Id. at 3.
7
  OMB A 123, appendix B sec. 4.6, states that “unauthorized purchases consist of items that are
intentionally purchased and are outside of the cardholder’s purchasing authority.” (emphasis added).
Since the CPSC directive did not prohibit the cardholder from making the purchase of the iPads, the
purchase was not “outside of the cardholder’s purchasing authority” and thus, there is no unauthorized
purchase.
8
  See OGC memo at 4.
9
  See id.
10
   The prohibition of using purchase cards for telecommunications was intended to ensure that employees
used Federal Telecommunications Services (FTS) cards when making voice calls and not purchase cards.

                                                  2
EXIT’s approach with respect to the evaluation of new technology, such as the iPad 2, has been
focused on CPSC’s business needs. EXIT included requirements unique to tablet computers and
smart phone devices as part of the Headquarters wireless network implementation. EXIT also
reviews the application integration capabilities of these devices to see how they can be used
with CPSC’s existing office automation suite and potentially as tools for field and import
investigators, where a tablet solution appears to afford great utility. The plan was to have
implemented the wireless solution last fall, but because of technical problems that the vendor
was slow in addressing, the project was delayed. EXIT did continue other types of reviews with
the products, such as a Shortel app, a VPN app, several calendar apps, word processing apps,
and utility programs, such as One Note. Staff also met with several vendors to determine how
they have addressed the security requirements in the Federal Information Processing Standard
Publication 140-2. Staff’s review addressed two factor authentication, VPN connection, and data
encryption. Currently, staff is testing the devices to determine how well they fit into CPSC’s
architecture.

In order to test the iPad 2 as staff would use them in production, EXIT purchased the model with
3G capability, a requirement for field and import investigators. Staff purchased the 64GB units
because the devices need to be able to support the document and image storage requirements
of an investigator. These requirements include being able to download information prior to
going on site to conduct an investigation as well as the ability to add large amounts of data to
the device when gathering facts during an investigation. The smaller units with only 16GB or
32GB of memory, which cost about $200 less than the 64GB units, would not meet the needs of
the investigators. Thus, Management does not consider the purchase of the 64 GB version to be
excessive or unwarranted.

EXIT has a small staff for the level of work required. EXIT managers and supervisors play
important roles above and beyond their management duties. At the CPSC, the Chief Information
Officer (CIO) performs many of the functions performed by the Chief Technical Officer in a larger
agency. The CIO had full responsibility for the recommendation to evaluate the iPad 2 and
continues to drive the tablet computer’s evaluation for suitability at CPSC. The CIO is also the
functioning Program Manager for CPSRMS and is integrally involved in product selection,
testing, and purchase. Because of his involvement in every IT initiative at CPSC, he uniquely is
positioned to review all requirements in the systems that EXIT implements. The CIO, Deputy CIO,
and senior supervisor who tested the devices represent a wide range user types. The senior
supervisor, EXIT’s Director of Technical Services, is extremely well versed in networking and
security challenges. The Deputy CIO has knowledge of the agency’s program areas and brings a
firm understanding of their needs at many levels. The CIO, as noted, is CPSC’s chief technology
officer. The CIO works most closely with the Deputy CIO and the Director of Technical Services
on a daily basis and is able to assign them areas for evaluation that helped test the units.

Based on these factors, Management does not believe that the purchase of the iPad 2s was
excessive—the purchase is justified by the business needs of the agency. Management also does
not believe that the iPad 2s were purchased for questionable need or personal use; rather, they
were part of an ongoing review of application integration capabilities to determine how
emerging technology can be used with CPSC’s existing office automation suite, and potentially,
as tools for field and import investigators where a tablet solution appears to afford great utility.


                                                 3
For these reasons, Management does not consider the purchase of the iPad 2s to be abusive or
fraudulent.

Monitoring of Purchase Card Program

Management accepts the recommendation that an oversight program be established in the
Division of Financial Services (FMFS); however, given that the purchase was proper, an oversight
program would not have identified the purchase as improper.

The GSA guidance and criteria for identifying fraud or misuse of purchase cards are as follows:

    •   Purchases that exceed the cardholder’s limit,
    •   Purchases not authorized by the agency,
    •   Purchases for which no funding exists,
    •   Purchases for personal consumption,
    •   Purchases that do not comply with the FAR and/or other applicable procurement
        statutes and regulations, and
    •   Purchases billed by the merchant but not received by the agency.

The purchase card transaction for the iPad 2s does not meet the GSA criteria for fraud or
misuse. In addition, the iPad 2 purchase is in compliance with the CPSC’s
Approval/Authorization requirements. There was supporting documentation for the purchase
card transaction and items were delivered to the CPSC business address. The items were
received on July 21, 2011, and assigned barcodes on September 20, 2011 (one iPad 2) and on
September 28, 2011 (two iPad 2s).

Furthermore, the iPad 2 purchase is in compliance with the GSA Blueprint for Successful
Purchase Card Oversight, meeting the requirements for card usage, documentation, and
processing, so had FMFS used that as a guide, the purchase would have been deemed proper
and thus, not flagged for further review.

Management does agree that the iPad 2s should have been entered into the Property
Management System in a timelier manner and is reviewing its standard operating procedures to
correct that issue.

Response to Recommendations

Based on the guidance provided by OMB and GAO, and the legal determinations of CPSC’s OGC,
Management does not agree that the purchase of the iPad 2s was improper, unauthorized, or
abusive. Management also does not agree that due to the lack of documentation supporting
government need, the purchase created the perception that it was for a fraudulent purpose.
Thus, Management does not accept the recommendation to hold the official who
approved/certified the purchase of the iPad 2s personally financially liable for the full amount of
the purchase of the devices.

Management accepts the recommendation that an oversight program should be established
within FMFS. FMFS will set up procedures to periodically review purchases to determine if any
appear to be improper, outside the scope of business use for the organization, or fraudulent.

                                                 4
Management also agrees to review and revise as necessary its standard operating procedures to
ensure that property is entered timely into the Property Management System.




5/30/2012

Attachment A: OGC memo




                                              5
                                                                                                           Attachment A




                     U. S . CO NS UME R P RO DUCT S A FE TY CO MMI S S I O N
                                    B ET HE S DA , MD 20 8 14


MEMORANDUM                                               May 29, 2012

TO:                 Kenneth R. Hinson, Executive Director

THROUGH: Cheryl A. Falvey, General Counsel
         Mary T. Boyle, Acting Deputy General Counsel
         Melissa D. Buford, Assistant General Counsel for General Law

FROM:               Pamela L. Brinker, Attorney, General Law Division

SUBJECT:            Purchase Card Use for iPads

                                                            ISSUES

     1) Is the purchase of an iPad 2 using a CPSC purchase card permitted by CPSC policy?
     2) Based on the purchase documentation, was the purchase of the three iPad 2s proper under the
        criteria established in OMB A 123, appendix B?
     3) Based on the purchase documentation, was the purchase of an iPad 2 appropriately authorized
        under OMB A 123, appendix B?


                                                          ANSWERS

      1) While not expressly permitted, the purchase card Directive does not prohibit the purchase of
         the iPad 2 because it is a hybrid device that combines telecommunications features with
         traditional computer functions.
      2) Yes. Given the lack of clarity in the CPSC directive regarding hybrid devices, the purchase of
         the iPads is not prohibited, and thus, the purchases were not improper under the criteria
         established in OMB Circular A123, appendix B.
      3) Yes. Given the lack of clarity in the CPSC directive regarding hybrid devices, the purchases
         were not prohibited by the CPSC Directive, and thus, they were appropriately authorized under
         the OMB Circular.

                                                        DISCUSSION

        The CPSC purchase card Directive permits the purchase of computer hardware, but does not
permit the purchase of a telecommunications device. 1 Thus, to assess whether the iPad purchase was


1
    The CPSC purchase card directive (1540.1, paragraph 11) prohibits the use of the card to purchase telecommunications.


                               CPSC Hotline: 1-800-638-CPSC(2772) CPSC's Web Site: http://www.cpsc.gov
2



permissible under the purchase card Directive, we must determine whether the iPad is computer
hardware or whether it is a telecommunication device.

        According to Webster’s Dictionary and Wikipedia, telecommunication is defined as
“communication at a distance” and “technology that deals with telecommunication.” Wikipedia notes
further that email and other transmission of data via the internet technically constitutes
telecommunication. Webster’s dictionary defines “computer” as “a programmable usually electronic
device that can store, retrieve, and process data.” Initially, computer hardware consisted of desktop
computers that employees could not transport, a bright line that made the demarcation between
computer hardware and telecommunication devices relatively straightforward. However, as
technology progressed, laptop computers incorporated telecommunication features, allowing
employees to work from remote locations, thereby blurring the line between telecommunication
devices and traditional computers. At the CPSC, this line was further blurred when employee laptops
were equipped with Shoretel telephone features, providing a traditional telecommunications attribute—
telephone capability— through a portable computer.

        Building on the laptop concept, technological advances led to the development of even smaller
and lighter computer systems known as tablet computers. Wikipedia defines “tablet computers” as “a
mobile computer” that is “integrated into a flat touch screen and primarily operated by touching the
screen rather than using a physical keyboard.” 2 Wikipedia defines the iPad as a tablet computer, 3 that
is used “primarily as a platform for audio-visual media including books, periodicals, movies, music,
games, apps and web content.” The iPad is a small and lightweight device that allows an employee to
access files, edit documents, create forms, take notes, create invoices, analyze reports, brainstorm
ideas, and create presentations. These are clearly functions traditionally performed by computer
hardware. Apple does not define its iPad 2 as either a telecommunication device or tablet computer,
advertising it as performing functions traditional to both a computer and a telecommunication device. 4
Thus, with the advent of the tablet computer, the dividing line between telecommunication devices and
computer hardware became even less clear. Indeed, all computer hardware currently incorporates
some telecommunication aspects. 5

        Although the iPad 2 performs traditional computer hardware functions, it also contains many
telecommunications features, underscoring the hybrid nature of a product that does not fall squarely
into the definition of either computer hardware or a telecommunication device. For example, iPads
can run on wireless internet, a 3G cellular network, or third generation mobile telecommunication, 6
facts that place it in the telecommunication realm. The iPad can also perform traditional
telecommunication tasks such as allowing an employee to connect to the office to participate in a
meeting or give a presentation remotely, functions that are also available on a laptop computer.
Additionally, the device operates on iOS, an operating system designed specifically for mobile


2
  Although Wikipedia may seem like an unreliable source to be citing in a legal memorandum, Webster’s Dictionary, which
courts turn to for ordinary dictionary meaning of terms, does not define tablet computer.
3
  See Wikipedia definition.
4
  See http://www.apple.com/ipad/built-in-apps/ (claiming the device is good for messaging, reminders, calendar, music,
email, web browser, photos, tweeting, reading, video calls, and maps.)
5
 Email, Skype, and webcasts are examples.
6
  The iPad 2 had 3G capabilities; however, the newest model, the iPad 3, runs on 4G so Apple, AT&T and Verizon sites
often reference 4G but it is, for our purposes, interchangeable as both are cellular networks.
3



telecommunications devices 7 and can be operated on the third generation mobile telecommunication
(3G cellular) network. 8


        The iPad 2 comes in a variety of models including models that only transmit data through a
wireless internet connection and models that have the ability to transmit data through both a wireless
internet connection and 3G cellular networks. Both types of models are available in 16 gigabytes, 32
gigabytes, or 64 gigabytes. The CPSC purchased the 64 gigabyte model with both wireless internet
and 3G capabilities. The purchase of the more expensive device with 3G capabilities suggests that the
employees intended to use the devices on the 3G cellular network. To operate any of the applications
that require internet or to download additional applications without using wireless internet, the user
must use a 3G cellular network. If the iPad has 3G capability, the user may purchase a data plan from
the appropriate carrier. 9 Both carriers use 3G as their cellular network. 10 There is no indication as to
whether the CPSC actually purchased 3G data plans for the devices. However, because the CPSC does
not currently have wireless internet capability and the iPad cannot be hooked up to landline internet,
the devices would have needed a 3G cellular network at CPSC headquarters for any tasks requiring
internet access. Absent a 3G cellular network, the employees would have been unable to download
any application, which would prevent the iPad from being used productively for CPSC business. 11
The recent announcement that CPSC intended to acquire wireless capability at headquarters suggests
that such a plan was contemplated at some point. The timing as to when staff began developing
wireless plans for headquarters would be relevant to this inquiry particularly in light of the employees’
statement that they wanted to test the device within the existing technology architecture. If the devices
were used at other locations to access wireless internet, that would weaken the argument that they were
being used to test the current CPSC infrastructure. At the same time, if the iPads were used no
differently than laptop computers, even at a remote location, it is hard to parse the difference between
the two products given the amorphous blend of functions and features created by technological
advances. 12

        Accordingly, in light of the fluid definitions of telecommunication and computers as well as
evolving technologies, the purchase of an iPad falls within a gray area not contemplated by the
Directive. While it would have been prudent for staff to have sought guidance prior to making the
purchase, the Directive does not definitively forbid the purchase of iPads, which are an amalgam of
technologies and functions that fall between the clearly permissible—computer hardware—and the
clearly prohibited—telecommunications devices. Thus, the use of the purchase card to purchase
these devices, while not expressly permitted, is also not expressly prohibited by CPSC Directive
1540.1 as written.


7
  http://www.apple.com/ipad/ios/.
8
  http://www.apple.com/ipad/specs/.
9
  IPads with 3G are specifically designed to either operate on the Verizon or AT&T cellular networks. See
http://www.att.com/ipad/?fbid=Ih2ovXRcwKg and http://www.verizonwireless.com/b2c/device/tablet/ipad for the data
plans offered.
10
   Again, at the time it was 3G, currently it is 4G.
11
   The applications that come installed on the device that do not require internet would not be beneficial to the agency.
12
   The purchaser and recipients of the devices are technology experts and would recognize that the 3G capability was
present and since no effort was made to return or exchange the device for wifi only models, it can only be assumed the
recipients intended to procure the telecommunications features inherent in the high-end model they purchased.
4



        OMB states that “unauthorized purchases consist of items that are intentionally purchased and
are outside of the cardholder’s purchasing authority.” 13 The iPads were intentionally purchased but,
as hybrid telecommunication devices not contemplated by the Directive, cannot be deemed to fall
outside the cardholder’s purchasing authority pursuant to CPSC Directive 1540.1. Accordingly, the
iPads were not unauthorized pursuant to the OMB Circular. Further, since the purchase was not
unauthorized, the purchase was also not an improper purchase under the OMB Circular. 14

        In addition to the issues discussed above, one other potential area of concern involves the
inadequate property management process applied to the iPad purchase. The iPads were provided
barcodes, one on September 20, 2011 and two on September 28, 2011, but were not properly entered
into the Property Management System. Entering the devices into the Property Management System
entails a formal process that is more involved than merely equipping property with barcodes.
Moreover, because the items were purchased together, it is reasonable to assume they were also
received simultaneously. Yet, they were barcoded eight days apart. If that were a mere oversight, it
raises the question as to how the same mistake could occur on two separate occasions (September 20
and 28). Finally, the items were purchased on July 21, 2011, yet they were not barcoded until two
months later, on September 20th and 28th. These apparent failures in process raise serious concerns that
warrant further attention.


                                                       CONCLUSION

        In light of technological advances, the Directive provides insufficient direction as to how to
distinguish between permissible and prohibited purchases of hybrid products that incorporate both
computer and telecommunication features. Given the dual features of the iPads, their purchase, while
not expressly permitted, was also not expressly prohibited by the Directive. In light of the fact that the
iPads offer computer functions that make it comparable to laptops in many respects, it was not
unreasonable for the EXIT Director, the staff member in the Agency most knowledgeable about
technology, to conclude that this was a permissible computer purchase under the Directive. Because
the directive is outdated, it should be rewritten to address the technological advances that have made
the bright line distinction between telecommunication and computer hardware a false dichotomy.




13
     OMB A 123, appendix B sec. 4.6.
14
     See Id. (finding that an “improper purchase can be one of two types: 1) unauthorized or 2) incorrect.”
